             Audit Report




Overall Processing Times for 2010
Childhood Supplemental Security
         Income Claims




      A-04-12-11230| February 2013
MEMORANDUM


Date:      February 8, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Overall Processing Times for 2010 Childhood Supplemental Security Income Claims
           (A-04-12-11230)

           The attached final report presents the results of our audit. Our objective was to determine the
           average overall processing times for childhood Supplemental Security Income disability claims
           decided in Calendar Year 2010 by the disability determination services, hearing offices, Appeals
           Council, and Federal Courts.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Summary of Overall Processing Times for 2010 Childhood
Supplemental Security Income Claims
A-04-12-11230
February 2013

Objective                                   Our Findings

To determine the average overall            In CY 2011, nearly 1.2 million disabled children received SSI
processing times for childhood              payments. By any measure, SSI recipients are among the poorest of
Supplemental Security Income (SSI)          our country’s citizens. For them, SSI is truly the program of last
disability claims decided in Calendar       resort.
Year (CY) 2010 by the disability
determination services (DDS), hearing       We determined the average overall processing times for childhood
offices, Appeals Council, and Federal       SSI disability claims decided in CY 2010 by the DDSs, hearing
Courts.                                     offices, Appeals Council, and Federal Courts. The performance
                                            measure we present in this report tracks the time it takes a person to
Background                                  go through the entire disability process. In contrast, SSA’s
                                            measures track the time it takes a person to go through specific
The Social Security Administration          segments of the process so the Agency can manage workloads
(SSA) provides SSI disability               within each component.
payments to eligible children. If the
claimant disagrees with the initial         Compared to our prior review of all disability claims completed in
disability determination, he/she can file   Calendar Year 2009, the processing times for our sampled DDS
an appeal within 60 days of the date of     childhood SSI cases were marginally longer, whereas the times for
notification of the determination. In       our sampled hearing office, Appeals Council, and Federal Courts
most cases, an individual may request       cases were shorter than the times we reported for all disability
up to three levels of administrative        claims for CY 2009.
review: (1) reconsideration by the
DDS, (2) hearing by an administrative       Using SSA’s performance measure for disability claims, we
law judge, and (3) review by the            calculated the claim processing time at each of the decision
Appeals Council. If a claimant is           levels—DDS, hearing offices, and Appeals Councils (SSA does not
dissatisfied with the Appeals Council’s     measure processing time at the Federal Court level)—for our
decision, he/she may appeal to the          sampled claims. We found the processing times for our sampled
Federal Courts.                             DDS and hearing office cases were longer than what SSA reported
                                            in its FY 2010 Performance and Accountability Report (for all
                                            disability claims). However, the processing times for our sampled
                                            Appeals Council cases were shorter than SSA’s reported times
                                            during its FY 2010 performance period.

                                            Our Recommendations

                                            We did not make any recommendations in the report.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     DDS Sample Results ..................................................................................................................5
     Hearing Office Sample Results ..................................................................................................7
     Appeals Council Sample Results ...............................................................................................9
     Federal Court Sample Results..................................................................................................10
Conclusions ....................................................................................................................................12
Agency Comments .........................................................................................................................12
Appendix A – The Social Security Disability Process ............................................................... A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Sampling Methodology and Results ................................................................... C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)
ABBREVIATIONS
Act                  Social Security Act

ALJ                  Administrative Law Judge

C.F.R.               Code of Federal Regulations

CY                   Calendar Year

DDS                  Disability Determination Services

DQB                  Disability Quality Branch

FY                   Fiscal Year

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)
OBJECTIVE
Our objective was to determine the average overall processing times for childhood Supplemental
Security Income (SSI) disability claims decided in Calendar Year (CY) 2010 by the disability
determination services (DDS), hearing offices, Appeals Council, and Federal Courts.

BACKGROUND
The Social Security Administration (SSA) provides SSI disability payments to eligible children 1
under Title XVI of the Social Security Act (Act). 2 To receive SSI payments, an individual must
first file an application with SSA. An SSA field office then determines whether the individual
meets the non-medical criteria for benefits 3 and, if so, generally forwards the claim to a DDS 4 for
a disability determination. Once the DDS makes a determination, it sends the claim back to the
field office for final processing or to the Disability Quality Branch (DQB) for review before final
processing. 5

If the claimant disagrees with the initial disability determination, he/she can file an appeal within
60 days of the date of notification of the determination. In most cases, an individual may request
up to three levels of administrative review: (1) reconsideration by the DDS, (2) hearing by an
administrative law judge (ALJ), and (3) review by the Appeals Council. If a claimant is
dissatisfied with the Appeals Council’s decision, he/she may appeal to the Federal Courts. See
Appendix A for details about the role each component plays in SSA’s disability process.

As a claimant goes through the disability process, his/her condition may worsen or additional
evidence may become available. As a result, he/she may be denied by one component and
allowed by another.




1
 An eligible child can neither be married nor a head of household and is either (1) under age 18 or (2) under age
22 and a student regularly attending school, college, or training to prepare him or her for a paying job. Program
Operations Manual System (POMS), SI 00501.010, February 8, 2012.
2
    Act §1611 et seq., 42 U.S.C. §1382 et seq.
3
    For SSI payments, the non-medical criteria include such factors as low income and resources.
4
  Disability determinations under the Social Security Disability Insurance and SSI programs are performed by DDSs
in each State or other responsible jurisdiction.
5
  By statute, SSA must review half of all allowances, which are selected by a predictive model. See
Act § 221(c)(3)(A), 42 U.S.C. 421(c)(3)(A). DQBs also perform a quality assurance review on 70 initial allowances
and 70 initial denials per State per calendar quarter. This sample ensures statistically valid findings for all DDSs
irrespective of size. For each review, a Federal quality reviewer determines whether the record supports the DDS’
determination and whether the evidence and determination conform to SSA’s policies and procedures.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                     1
In its annual Performance and Accountability Report, SSA has performance measures for the
average processing times of (1) initial disability claims, (2) hearing decisions, and (3) Appeals
Council decisions. 6 SSA designed each measure to capture the average processing time for a
specific segment of the disability process, instead of the average overall claim time. For
example, the performance measure for hearings captures the average processing time from the
date the claimant requests a hearing to the date the hearing office renders a decision, not from the
date the claimant first files an application to the date the hearing office denies or allows the claim
and SSA pays the benefits.

See Table 1 for the average processing times that SSA reported in its Fiscal Year (FY) 2010
Performance and Accountability Report.

                   Table 1: SSA’s Reported FY 2010 Overall Processing Times
               Initial Disability
                                           Hearing Decisions          Appeals Council Decisions
                    Claims
                    111 days                     426 days                         345 days

In our May 2011 report, Overall Disability Claim Times for 2009 (A-01-10-10168), we
determined the average overall processing time for disability claims decided in CY 2009 by
DDSs, hearing offices, Appeals Council, and Federal Courts. The October 2011 Hearing on
Supplemental Security Income Benefits for Children before the House Subcommittee on Human
Resources, Committee on Ways and Means, discussed the growth in the number of children
applying for SSI payments and methods for improving the efficiency and effectiveness of the SSI
program. Our review focused on the overall processing times for childhood SSI disability claims
decided in CY 2010. Table 2 details the increase in childhood SSI claims from CYs 2007
through 2011. 7




6
  The average processing times that SSA reports are for all disability claims, including Titles II and XVI. Our
review focused only on childhood Title XVI disability claims.
7
  Because SSA does not routinely report management information for the number of childhood SSI disability claims
filed, we determined these figures from extracts of SSA’s electronic Forms SSA-831, Disability Determination and
Transmittal. For consistency of comparisons, we also determined the number of total SSI claims filed from these
extracts.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                   2
                  Table 2: Increase in Childhood SSI Claims (2007 Through 2011)
                                                                               Percent Increase in
                                                    Childhood SSI
             CY          Total SSI Claims                                    Childhood SSI Disability
                                                   Disability Claims
                                                                             Claims from Prior Year
           2007                 2,115,970                 450,251                        --

           2008                 2,205,675                 463,285                        3%

           2009                 2,387,940                 499,153                        8%

           2010                 2,668,763                 552,435                     11%

           2011                 2,799,249                 562,649                        2%

To conduct our current review, we obtained data for all childhood SSI disability decisions made
in CY 2010. We randomly selected decisions from each of the four populations—DDSs, hearing
offices, Appeals Council, and Federal Courts. For each sampled decision, we determined the
total processing time from the application date to the date of denial, the date SSA began monthly
benefits, or the date SSA paid the past-due benefits. See Table 3 for the population of decisions
and sample sizes for each deciding entity.

        Table 3: Populations and Sample Sizes of CY 2010 Childhood SSI Decisions
                     Deciding Entity                   Number of Decisions        Sample Size
                         DDSs                              500,720                   275
                     Hearing Offices                         48,198                   100
                     Appeals Council                          8,613                   100
                      Federal Courts                          373                        50

See Appendix B and Appendix C for more information on our scope, methodology, and sample
results.

RESULTS OF REVIEW
We determined the average overall processing times for childhood SSI disability claims decided
in CY 2010 by the DDSs, hearing offices, Appeals Council, and Federal Courts. Table 4 details
the CY 2010 average processing time from the claim application date to the date an SSA
component or Federal Court denied the case or SSA paid benefits on the claim.

                     Table 4: OIG’s Measure of Average Overall Claim Time
                                     DDS                       Hearing         Appeals           Federal
      CY
                      Initial          Reconsideration          Office         Council           Courts
      2010           128 days               268 days           730 days       1,074 days        1,651 days




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)              3
Our measure includes time from the date an SSA component denied a claim to the date the
claimant filed an appeal—we refer to this as appeal time. We acknowledge SSA has no control
over appeal time or the time it takes the Federal Courts to review a case and render a decision.

SSA has a performance measure for disability claims processing times. However, it does not
have a measure specific to SSI childhood disability claims. As such, for comparison purposes,
we used SSA’s disability claim measurement to calculate the processing time for our sampled
claims. Specifically, we calculated the claim processing times at each of the decision levels—
DDSs, hearing offices, and Appeals Council. Our comparison found the processing times for our
sampled DDS and hearing office cases were longer than what SSA reported in its FY 2010
Performance and Accountability Report (for all disability claims). However, the processing
times for our sampled Appeals Council cases were shorter than SSA’s reported times. Table 5
compares, by component, our calculated processing times to SSA’s reported processing times.

                     Table 5: Comparison of Processing Times by Component
                                                                                                     Appeals
                                                                        DDS        Hearing
           Claims Processing Time Measurement                                                        Council
                                                                        Days      Office Days
                                                                                                      Days
    OIG Determined Processing Times for CY 2010—Sampled
                                                                         128           477              290
    SSI Childhood Disability Claims DDS
    SSA’s FY 2010 Performance and Accountability Report—
                                                                         111           426              345
    Processing Times for All Disability Claims

    Difference in Processing Days                                        +17           +51              -55


We also compared the processing times we calculated for childhood SSI disability claims for this
report to the processing times in our May 2011 report. Our comparison found the processing
times for our sampled DDS childhood SSI cases were marginally longer than the processing
times we reported for all disability claims for CY 2009. However, the processing times for our
sampled hearing office, Appeals Council, and Federal Courts cases were shorter than the
processing times we reported for all disability claims for CY 2009. Table 6 compares, by
component, our calculated processing times for CY 2010 childhood SSI claims to our reported
processing times for all CY 2009 disability claims. 8




8
  In processing a childhood SSI disability claim, SSA may need to obtain information from the child’s school and
teachers. Obtaining educational information may add additional DDS processing time for childhood claims.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                    4
                     Table 6: Comparison of OIG Calculated Processing Times
                                                                           Hearing         Appeals         Federal
                                                             DDS
      OIG Calculated Processing Times                                       Office         Council         Courts
                                                             Days
                                                                            Days            Days            Days
2010 Childhood SSI Claims                                     128             730            1,074           1,651

2009 Overall Disability Claims                                119             812            1,164           1,895

Difference in Processing Days                                  +9             -82              -90           -244

Moreover, SSA’s FY 2011 Performance and Accountability Report stated DDS and hearing
office processing times improved by 2 and 66 days, respectively, from FY 2010 while the
Appeals Council processing time increased by 13 days. We attribute the decrease in the hearing
office processing times to SSA’s efforts to improve processing times.

DDS Sample Results
DDSs obtain and evaluate evidence from medical and other sources to determine whether a
claimant is disabled. If the claimant is dissatisfied with the DDS determination, the claimant
may request that the DDS reconsider it. 9

SSA measures the average processing time from the date of filing to the date the Agency initiates
payment or issues the denial notice. Using SSA’s measure, for the 275 sampled cases, SSA took
an average 128 days 10 to process an initial childhood SSI claim—ranging from 9 days to over
1 year. In its FY 2010 Performance and Accountability Report, SSA reported the processing
time for all disability claims was 111 days. Figure 1 compares our average overall processing
time 11 for childhood disability claims by component, including transfer time 12 to SSA’s average
processing time for all initial disability claims.




9
 SSA eliminated the reconsideration process in 10 States: Alabama, Alaska, California (Los Angeles North and
West Branches), Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania.
10
   Assuming the average overall time of the population of DDS cases is normally distributed and using inferential
statistical techniques, we are 90-percent confident the average overall time for the entire population would be
between 125 and 140 days.
11
  The component processing times combine all the days each component had the case and do not necessarily fall in
the adjudicative order on the timeline.
12
   Transfer time includes all claim application transfer days. For example, transfer time occurs from the date the
field office sends an application to the date the DDS receives it.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                      5
                  Figure 1: Timeline 1 - 2010 DDS Childhood SSI Processing Times

     Claimant                                                                                 Claim
      Applied        OIG's Average Overall Processing Time (128 Days)
                                                                                            Completed
        for
     Disability
                   Field Office                                             Payment: 6 Days          Transfer Time
                     23 Days                                                                            10 Days
                                                                        DDS: 89 Days



                   20             40           60            80            100           120




     Claimant      SSA's Average Processing Time (111 days)                  SSA Processed Initial
      Applied                                                                     Disability
        for                                                                     Determination
     Disability




For example, a claimant applied for SSI in May 2010, and the DDS allowed the claim in
September 2010. That same month, the field office processed the claim and initiated payment.
SSA took 128 days to process the claim from the filing date to the award processing date. The
total processing time for this claim was the same as the average processing time for all of our
sampled DDS claims.

Of the 275 sample cases, the DDSs allowed 101 cases (37 percent) and denied 174 cases
(63 percent). SSA took an average 128 days to process the approved cases and 129 days to
process the denied claims. For the 101 allowances, SSA took an average 17 days to initiate
payment following a DDS determination.

Further, of the 275 sample cases, 8 had reconsideration determinations. 13 For these 8 cases, we
determined it took SSA an average 268 days to completely process a reconsidered claim—
ranging from 6 to 12 months. SSA did not have a performance measure for the processing time
of reconsiderations. Figure 2 details the average CY 2010 DDS processing times for
reconsideration childhood SSI claims.




13
   Of these eight cases, the DDSs upheld the initial determination in six cases and reversed the initial determination
in two.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                          6
       Figure 2: Timeline 2 - 2010 DDS Childhood SSI Processing Times—Reconsideration
                                            Claims

     Claimant             Average Overall Claim Time for Reconsiderations (268 days)              Claim
      Applied                                                                                   Completed
        for
     Disability
                                                                                 Payment: 16 Days

           Field Office                           DDS      Appeal Time        Reconsideration         Transfer Time
             19 Days                            101 Days     41 Days             86 Days                 5 Days


                      40             80          120          160          200           240




Hearing Office Sample Results
A claimant may request a hearing before an ALJ if he/she is dissatisfied with the DDS’
determination and, if applicable, the reconsideration decision. When the claimant does not waive
his/her right to appear at the hearing, the ALJ reviews information obtained from questioning the
claimant, his/her representative, and witnesses. In addition, the ALJ reviews the evidence on file
and any additional evidence submitted for consideration. The ALJ then issues a decision. Under
certain circumstances, an SSA attorney advisor may conduct prehearing proceedings. After
these proceedings are complete, if the decision is fully favorable, the attorney advisor may issue
the decision. 14

Based on our review of 100 sampled cases, SSA took, on average, 730 days 15 to process a
childhood SSI disability claim through the hearing level—ranging from 6 months to 3.75 years.
SSA measures the average processing time from the date the claimant requests a hearing to the
date the hearing office issues a decision. In its FY 2010 Performance and Accountability Report,
SSA reported a 426-day average processing time for hearing decisions. Using SSA’s measure,
we determined SSA took an average 477 days to process a childhood SSI disability claim at the
hearing level.

Figure 3 compares OIG-calculated average overall hearing office processing time for childhood
SSI disability claims by component (including transfer and appeal time) to SSA’s average
hearing office processing time for all initial disability claims.




14
     See 20 C.F.R. §§ 404.942 and 416.1442.
15
   Assuming the average overall time of the population of hearings cases is normally distributed and using inferential
statistical techniques, we are 90-percent confident the average overall time for the entire population would be
between 693 and 768 days.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                       7
            Figure 3: Timeline 3 - 2010 Hearing Office Childhood SSI Processing Times

      Claimant                  OIG's Average Overall Processing Time for Hearing Offices (730 days)                           Claim
     Applied for                                                                                                             Completed
      Disability
      Benefits                                                                                                Payment Time: 16 Days

                                                                                                   Appeal Time: 65 Days        Transfer
     Field Office           DDS
                                                                                                                                 Time
       26 Days            140 Days                                                          Hearing Office: 477 Days            6 Days



          50        100
                     10   150
                           15      200
                                    20      250
                                             25     300
                                                     30     350
                                                             35     400
                                                                     40     450
                                                                             45     500
                                                                                     50     550
                                                                                             55     600
                                                                                                     60     650
                                                                                                             65        700



                           Claimant                                                                 ALJ
                          Requested                                                               Issued
                            SSA's Av
                           Hearing       SSA's Average Hearing Office Processing Time (426 days) Decision



For example, a claimant applied for SSI in May 2008, which the DDS denied. The claimant then
requested a reconsideration, which the DDS also denied. In December 2008, the claimant
requested a hearing by an ALJ, who allowed the claim in April 2010. In May 2010, the field
office initiated payment and issued the back payments due. In total, SSA took about 2 years to
process this claim. About 1.5 years of that time was from the hearing request date to the ALJ
decision date. The total processing time for this claim was 732 days, which is consistent with the
average processing time for all of our sampled hearing office claims.

Moreover, of the 100 sampled hearing office cases, the ALJs denied 44, dismissed 20, and
allowed 36. SSA took an average 738 days to deny a claim, 662 days to dismiss 16 a claim, and
759 days to allow a claim. For the 36 allowed claims, SSA took an average 43 days to initiate
payment following a DDS determination.

Finally, of these 100 hearing office cases, 51 had reconsideration determinations and 49 did
not. 17 The cases with reconsiderations took 800 days, on average, to complete through the
hearing level while cases without reconsiderations took 658 days, on average, to complete
through the hearing level. Based on our sampled cases, SSA allowed cases with and without
reconsideration at about the same rate (35 percent and 37 percent, respectively). However, the
cases with reconsiderations took 142 days longer than those without reconsiderations. Table 7
details the hearing office decisions for cases with and without reconsiderations.



16
  An ALJ may dismiss a case when (1) the claimant does not timely file the request for hearing, (2) the claimant
fails to appear for the hearing, (3) the claimant withdraws the request for hearing, and (4) administrative res judicata
applies, which prevents claimants from re-litigating their claims before ALJs and the Appeals Council after the
matters raised have already been finally decided.
17
  Of the 49 cases that did not have a reconsideration, 43 cases were from States that do not perform reconsiderations
and 6 cases were from States that perform reconsiderations.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                                           8
             Table 7: Hearing Office Decisions with and Without Reconsiderations
            Decision             Cases with                  Cases Without                  Total
             Type              Reconsiderations             Reconsiderations
             Denied                 21            41%             23        47%           44        44%
           Dismissed                12            24%              8        16%           20        20%
            Allowed                 18            35%             18        37%           36        36%
              Total                 51          100%              49       100%         100      100%

Appeals Council Sample Results
If a claimant is dissatisfied with a hearing office decision, he/she may request the Appeals
Council review the case. If the Appeals Council agrees to review the case, it considers the
evidence on file, additional evidence submitted by the claimant, and the hearing office findings
and conclusions. The Appeals Council then (1) upholds or reverses the hearing office decision
or (2) remands the case to the hearing office to issue a new decision, obtain additional evidence,
or take additional action.

Based on our review of 100 sample cases, SSA took, on average, 1,074 days 18 to process a
childhood SSI disability claim through the Appeals Council level—ranging from 10 months to
over 5 years. SSA measures the average processing time from the date the claimant requests an
Appeals Council review to the date the Appeals Council makes a decision. Using SSA’s
measure, SSA took, on average, 290 days to process our sampled CY 2010 cases. In its FY 2010
Performance and Accountability Report, SSA reported the average processing time for Appeals
Council decisions was 345 days. Figure 4 compares OIG average overall Appeals Council
processing time for childhood SSI disability claims by component (including transfer and appeal
time) to SSA’s average appeals council processing time for all initial disability claims.




18
  Assuming the average overall processing time of the population of Appeals Council cases is normally distributed
and using inferential statistical techniques, we are 90-percent confident the average overall time for the entire
population would be between 1,014 and 1,134 days.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                     9
         Figure 4: Timeline 4 - 2010 Appeals Council Childhood SSI Processing Times 19

     Claimant        Average Overall Claim Time for Appeals Council Cases (1,074 days)
                                                                                                         Claim
      Applied                                                                                          Completed
        for
     Disability
                                                                                                   Payment Time: 2 Days

                                                                                        Appeal Time: 94 Days
           Field Office     DDS                                 Hearing Office                                 Transfer
             27 Days      145 Days                                512 Days       Appeals Council: 290 Days       Time
                                                                                                                4 Days

                  100      200       300     400      500       600      700     800       900     1000



                                        Claimant Requested                                 AC Issued
                                       Review of ALJ Decision                               Decision

                                      SSA's Average Appeals Council Processing Time (345 days)

Of the 100 sampled cases, the Appeals Council upheld 78, dismissed 9, remanded 10, and
reversed 3. SSA took, on average, 1,068 days to deny/dismiss claims and 1,111 days to process
the reversed claims.

For example, a claimant filed her application in May 2007. The DDS denied her application (at
the initial and reconsideration levels), and the ALJ upheld the denial decision. In
November 2009, the claimant requested the Appeals Council review the case. After reviewing
the case, the Appeals Council upheld the denial decision in April 2010. In total, SSA took about
3 years to process this claim and about 5 months to process the claim from the Appeals Council
request date to the Appeals Council decision date. The total processing time for this claim was
1,073 days, which is similar to the average processing time for all of OIG’s sampled Appeals
Council claims.

Federal Court Sample Results
If a claimant is dissatisfied with SSA’s final decision, he/she may file a suit with the U.S. District
Court. The U.S. District Court reviews all evidence on file as well as the hearing office and
Appeals Council findings and conclusions. The U.S. District Court has the power to dismiss,
uphold, modify, or reverse SSA’s final decisions and may remand cases to SSA for further
action, including a new decision. If the U.S. District Court does not find in the claimant’s favor,
he/she can continue appealing to other Federal Courts, including the U.S. Circuit Court of
Appeals and the Supreme Court.




19
  We computed the processing times only through the Appeals Council decision date. For the 10 remanded cases,
SSA completed the claim on average, 399 days after the Appeals Council remand decision.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                      10
Based on our review of 50 sampled cases, SSA took, on average, 1,651 days 20 to process a
childhood SSI disability claim through the Federal Court level—ranging from about 2.5 years to
about 8 years. We acknowledge SSA has no control over how long it takes a Federal Court to
review a case and render a decision. As such, SSA does not have any performance measures
associated with these cases. Figure 5 details OIG’s average overall Federal Courts processing
time for childhood SSI disability claims by component (including transfer and appeal time).

          Figure 5: Timeline 5 - 2010 Federal Court Childhood SSI Processing Times 21

                                                                                                        Federal
      Claimant      Average Overall Claim Time for Federal Court Cases (1,651 days)                      Court
     Applied for                                                                                        Decision
      Disability
                                                                Appeals
                                                                                       Transfer Time: 8 Days
                                                                Council:
          DDS:131 Days                                          274 Days            Appeal Time: 217 Days

     Field Office: 23 Days       Hearing Office: 604 Days                       Federal Courts: 394 Days



             175         350       525        700         875        1050       1225        1400       1575



                      SSA does not measure processing time at the Federal Courts

For example, a claimant applied for SSI payments in May 2005. The DDS denied the
application, and the ALJ and Appeals Council upheld the denial decision. In October 2008, the
claimant filed a suit with the U.S. District Court, and in January 2010, the U.S. District Court
upheld SSA’s denial decision. It took over 4.5 years for this claim to go through the disability
process. The total processing time for this claim was 1,695 days, which is consistent with the
average processing time for all of our sampled Federal Court claims.

Of the 50 sampled cases, the Federal Courts upheld the decision in 24, dismissed 7, remanded
17, and reversed 2. For the two reversals, it took SSA 122 days, on average, to initiate payment
following the Federal Court decision.




20
  Assuming the average overall processing time of the population of Federal Court cases is normally distributed and
using inferential statistical techniques, we are 90-percent confident the average overall time for the entire population
would be between 1,506 and 1,796 days.
21
  We computed the processing times only through the Federal Court decision date. For the 17 remanded cases,
SSAs Appeals Council made a final decision, on average, 324 days after the Federal Court remand decision.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                      11
CONCLUSIONS
In CY 2011, nearly 1.2 million disabled children received SSI payments. By any measure, SSI
recipients are among the poorest of our country’s citizens. For them, SSI is truly the program of
last resort. Because of the growth in childhood SSI claims in recent years and congressional
interest, we conducted this audit to determine whether there were significant differences in the
processing times of these cases versus all disability claims.

Compared to our prior review of all disability claims completed in CY 2009, the processing
times for our sampled DDS childhood SSI cases were marginally longer, whereas the times for
our sampled hearing office, Appeals Council, and Federal Courts cases were shorter than the
times we reported for all disability claims for CY 2009.

Using SSA’s performance measure for disability claims, we calculated the claim processing time
at each of the decision levels—DDS, hearing offices, and Appeals Councils—for our sampled
claims. Similarly, we found the processing times for our sampled DDS and hearing office cases
were longer than what SSA reported in its FY 2010 Performance and Accountability Report (for
all disability claims). However, the processing times for our sampled Appeals Council cases
were shorter than SSA’s reported times during its FY 2010 performance period.

The performance measure we present in this report tracks the time it takes a person to go through
the entire disability process. In contrast, SSA measures track the time it takes a person to go
through specific segments of the process so the Agency can manage workloads within each
component. We believe our measure would better help SSA officials and the Congress make
decisions about the overall disability programs. However, in response to our prior report, SSA
stated its measures are equally sound and that it chooses not to alter its techniques. Therefore,
we did not make a recommendation in this report.

AGENCY COMMENTS
SSA reviewed the draft report, but did not have any comments.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)   12
                                       APPENDICES




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)
Appendix A – THE SOCIAL SECURITY DISABILITY PROCESS
The Social Security disability process begins when a person files a disability claim and does not
end until the Social Security Administration (SSA) completes the claim. As a claim moves
through the process, it goes through a network of components, with each component responsible
for some aspect of the claim. The components involved in the process may include the field
offices, teleservice centers, disability determination services (DDS), Disability Quality Branches,
payment service centers, hearing offices, Appeals Council, and Federal Courts.

Field Office and Teleservice Center Roles
Field offices and teleservice centers perform similar functions. The field offices conduct
business in person, over the telephone, and over the Internet while teleservice centers conduct
business only over the telephone and Internet. The field offices and teleservice centers help
claimants complete applications for disability benefits and requests for appeals. In addition, they
determine whether the claimants meet the non-medical criteria for benefits, such as limited
income and resources (requirements for the Supplemental Security Income program). They also
send the initial claim and appeal requests to the appropriate components for further processing 1
and may receive them back for final processing. 2

DDS Role
The DDS is generally a State-run agency that makes disability determinations for SSA. SSA
reimburses the State for all allowable reported DDS expenses up to its approved funding
authorization and oversees the quality of the DDS’ work. At most DDSs, a disability
adjudicatory team comprised of a disability examiner and medical/psychological consultant, 3
using SSA’s regulations, policies, and procedures, obtains the relevant medical and other
evidence and makes a determination whether a claimant meets the definition of disabled under
the Social Security Act (Act).




1
 SSA may defer determining whether a person meets the non-medical criteria until it receives a favorable medical
decision from a DDS.
2
  If the field office cannot process or partially processes the claim, it sends the claim to the payment service center
for final processing.
3
 Medical/psychological consultant refers to physicians, psychologists, psychiatrists, optometrists, podiatrists, and
speech-language pathologists employed by the DDS. See 20 C.F.R. §§ 404.1616 and 416.1016. See also SSA,
Program Operations Manual System, DI 24501.001, September 11, 2012. At DDSs that use Single Decision
Makers, a disability examiner can make the disability determination in many cases without sign-off by a
medical/psychological consultant.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)                       A-1
Disability Quality Branch Role
SSA is required to report to Congress annually on the benefits and costs of the pre-effectuation
reviews; therefore, the Disability Quality Branches review half of all DDS allowances. To
ensure a high level of accuracy, the Disability Quality Branches review a statistically valid
quality assurance sample of initial and reconsideration allowances and denials made per calendar
quarter per State. For each review, a Federal quality reviewer determines whether the
evidentiary record supports the determination and the evidence and determination conform to
SSA’s operating policies and procedures. If the Disability Quality Branch finds the DDS
determination is not supported, it returns the claim to the DDS to reverse the determination or
gather additional evidence.

Payment Service Center Role
The payment service center processes favorable hearing office decisions, Appeals Council
reviews, and Federal Court decisions. It also processes initial disability determinations when the
field office cannot complete them, such as when the field office needs assistance in determining
the amount of back payments due the claimant.

Hearing Office Role
An administrative law judge (ALJ) generally conducts a hearing at a hearing office. Before the
hearing, the claimant and his/her representative may examine the evidence used in making the
determination under appeal and submit new evidence. At the hearing, the ALJ can question the
claimant and any witnesses the claimant brings. The ALJ may request other witnesses, such as
medical or vocational experts, to testify at the hearing. The claimant and his/her representative
may also question the witnesses.

The ALJ does not determine whether the DDS’ decision was correct but issues a new decision
based on the evidence. If the claimant waives the right to appear at the hearing, the ALJ makes a
decision based on the evidence on file and any new evidence submitted for consideration.

Under certain circumstances, an attorney advisor may conduct prehearing proceedings before the
hearing. As part of the prehearing proceedings, the attorney advisor, in addition to reviewing the
existing record, may request additional evidence and schedule a conference with the parties. If,
after completion of these proceedings, the attorney advisor can make a decision that is fully
favorable, an attorney advisor may issue the decision. 4




4
    20 C.F.R. §§ 404.942 and 416.1442.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)   A-2
Appeals Council Role
The Appeals Council consists of administrative appeal judges and appeal officers. A claimant
who is dissatisfied with the hearing office decision can ask the Appeals Council to review that
decision. The Appeals Council may deny, dismiss, or grant a request for review. If the Appeals
Council denies or dismisses the request for review, the hearing office decision becomes SSA’s
final decision. If the Appeals Council grants the request for review, it can (1) issue its own
decision affirming, modifying, or reversing the hearing office decision or (2) remand the case to
the hearing office for a new decision, additional evidence, or other action. If the Appeals
Council issues its own decision, that decision becomes SSA’s final decision. The Appeals
Council may also review a case within 60 days of the hearing office decision on its own motion;
that is, without a claimant requesting the review.

Federal Court Role
If a claimant is dissatisfied with SSA’s final decision, he or she may file a civil action with the
following Federal Courts in this order: U.S. District Court, U.S. Court of Appeals (Circuit
Court), and U.S. Supreme Court. Federal Courts have the power to dismiss, affirm, modify, or
reverse SSA’s final decisions and may remand cases to SSA for further action, including a new
decision. If SSA’s final decision is supported by “substantial evidence” and consistent with the
Act, the court should affirm the decision.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)   A-3
Appendix B – SCOPE AND METHODOLOGY
To achieve our objective, we:

•   Obtained data files of all childhood Supplemental Security Income (SSI) disability decisions
    made in Calendar Year (CY) 2010. From these files, we identified the latest decision on a
    claim.

•   Randomly selected 275 sample cases from the disability determination services (DDS)
    population, 100 sample cases from the hearing office and Appeals Council population, and
    50 sample cases from the Federal Courts population—for a total of 525 cases. For each case,
    by a Social Security Administration (SSA) component, we:

     Obtained and reviewed records from SSA’s systems, such as the DDS and Office of
      Hearings and Appeals Queries.
     Reviewed documents in SSA’s electronic disability folder.
     Calculated the number of days from the application filing date to the date of denial or the
      date SSA made a benefit payment.
     Calculated the average overall processing time.

•   Obtained and reviewed SSA’s performance measures for processing disability insurance
    claims.

•   Reviewed SSA's Performance and Accountability Report for Fiscal Year 2010 and the Office
    of the Inspector General report, Overall Disability Claim Times for 2009 (A-01-10-10168),
    May 2011.

•   Reviewed the Social Security Act and SSA regulations, rules, policies, and procedures on
    disability case processing and routing.

We conducted our audit between April and July 2012 in Atlanta, Georgia. The entities audited
were SSA's field offices, DDSs, and payment service centers under the Office of the Deputy
Commissioner for Operations; SSA’s Disability Quality Branches under the Office of the Deputy
Commissioner for Quality Performance; and SSA’s administrative law judges and Appeals
Council under the Office of the Deputy Commissioner for Disability Adjudication and Review.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We tested the data obtained for our audit and determined them to
be sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)   B-1
Appendix C – SAMPLING METHODOLOGY AND RESULTS
Sampling Methodology
We obtained data files of all childhood Supplemental Security Income (SSI) disability decisions
made in Calendar Year (CY) 2010. From these files, we identified the latest decision on a claim
made at the disability determination services (DDS), hearing office, Appeals Council and Federal
Court levels. We then randomly sampled 275 cases from the DDS, 100 cases from the hearing
office and Appeals Council, and 50 sample cases from the Federal Courts populations—for a
total of 525 cases. The following chart details our population and sample selection.

                              Table C-1: Population and Sample Details
                                                  Hearing         Appeals
                                    DDS                                         Federal Courts
                                                   Office         Council
            Population size        500,720        48,198           8,613              373

             Sample size             275            100             100               50


Sampling and Test Results
We projected our results at the 90-percent confidence interval. The following chart details our
results and projections.

                                    DDS Results and Projections
  Average—Overall Claim Time                                                                 128 days
  Lower Limit—Overall Claim Time                                                             125 days
  Upper Limit—Overall Claim Time                                                             140 days
                           Hearing Office Results and Projections
  Average—Overall Claim Time                                                                 730 days
  Lower Limit—Overall Claim Time                                                             693 days
  Upper Limit—Overall Claim Time                                                             768 days
                          Appeals Council Results and Projections
  Average—Overall Claim Time                                                                1,074 days
  Lower Limit—Overall Claim Time                                                            1,014 days
  Upper Limit—Overall Claim Time                                                            1,134 days
                           Federal Courts Results and Projections
  Average—Overall Claim Time                                                                1,651 days
  Lower Limit—Overall Claim Time                                                            1,506 days
  Upper Limit—Overall Claim Time                                                            1,796 days




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)          C-1
           Appendix D – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      January 7, 2013                                                              Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Overall Processing Times for 2010 Childhood
           Supplemental Security Income Claims” (A-04-12-11230)--INFORMATION


           Thank you for the opportunity to comment on the draft report. We reviewed the report’s
           findings and conclusions and have no comment.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.




           Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)   D-1
Appendix E – MAJOR CONTRIBUTORS
    Kimberly Byrd, Director, Atlanta Audit Division

    Frank Nagy, Audit Manager

    Mike Leibrecht, Senior Auditor

    Jordan Sherman, Auditor

    Kenley Coward, IT Specialist




Overall Processing Times for 2010 Childhood Supplemental Security Income Claims (A-04-12-11230)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
